IN THE SUPREME COURT OF THE UNITED STATES
No. _____________

SALVADOR OJEDA-AMARILLAS,
Petitioner,
-v-

UNITED STATES OF AMERICA,
Respondent.

PROOF OF SERVICE
I, Jeremy Warren, hereby certify that all parties required to be served with the
Petition for a Writ of Certiorari and Motion for Leave to Proceed In Forma Pauperis
filed herewith have been served as follows:
In accordance with Supreme Court Rule 29.2, I caused the original and ten
( 10) copies of these documents to be delivered to Clerk, Supreme Court of the United
States, 1 F irst St. NE, Washington, D.C., 20543 , on July 6, 2020; and on the same
date I:
caused one (I) copy of these documents to be delivered to the Solicitor
Genera l of the United States, Room 5614, D epat1ment of Justice, 950 Pennsylvania
Ave., N .W., Washington

